 DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General


     A Review of Procedures to Prevent
        Passenger Baggage Thefts




  Office of Inspections and Special Reviews

OIG-05-17                      March 2005
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared by the OIG as
part of its DHS oversight responsibility to promote economy, effectiveness, and efficiency within the
department.

This report addresses the strengths and weaknesses of the checked baggage screening process
employed by the Transportation Security Administration (TSA) to prevent passenger baggage thefts
and to process loss or stolen baggage claims. It is based on interviews with employees of TSA and
other officials of relevant agencies and institutions, direct observations, and a review of applicable
documents.

The recommendations herein have been developed to the best knowledge available to the OIG, and
have been discussed in draft with those responsible for implementation. It is our hope that this report
will result in more effective, efficient, and economical operations. We express our appreciation to all
of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Acting Inspector General
Contents

  Introduction.................................................................................................................................... 2

  Results in Brief .............................................................................................................................. 2

  Background .................................................................................................................................... 3

  Purpose, Scope, and Methodology.................................................................................................. 3

  Checked Baggage Screening Process ............................................................................................ 3

  Passenger and Carry-on Baggage Screening Processes ................................................................. 5

  Instances of Baggage Content Thefts ..............................................................................................6

  Background Checks of Baggage Screeners .....................................................................................8

  Baggage Screener Training..............................................................................................................9

  Missing Items Claims Processing ..................................................................................................10

Appendices
  Appendix A:                 Notification of Baggage Inspection Form........................................................14
  Appendix B:                 Management Comments ..................................................................................15
  Appendix C:                 OIG Analysis of Management Comments.......................................................18
  Appendix D:                 Recommendations............................................................................................21
  Appendix E:                 Major Contributors to this Report....................................................................22
  Appendix F:                 Report Distribution ..........................................................................................23

Abbreviations
  ATA                         Airline Travelers Association
  ATSA                        Aviation and Transportation Security Act
  CMC                         Claims Management Center
  CMO                         Claims Management Office
  DHS                         Department of Homeland Security
  FBI                         Federal Bureau of Investigation
  FTCA                        Federal Tort Claims Act
  HSA                         Homeland Security Act of 2002
  OIAPR                       Office of Internal Affairs and Program Review
  OIG                         Office of Inspector General
  TSA                         Transportation Security Administration



                              A Review of Procedures to Prevent Passenger Baggage Thefts                                               Page 1
Introduction
                        In September 2003, we received a letter from Congressman Jim Turner containing
                        several recommendations for audits, inspections, and investigations, including a
                        reference to passenger criticisms about stolen, lost, and damaged baggage.
                        Congressman Turner urged us to undertake a review of Transportation Security
                        Administration’s (TSA) processing of passenger and checked baggage. In
                        response to this request, we reviewed the passenger baggage screening process to
                        determine the efficacy of TSA’s procedures to prevent baggage thefts, as well as
                        the theft of baggage contents, and process lost or stolen baggage claims.

Results in Brief
                        From January 1, 2003, shortly after TSA was mandated to screen 100% of all
                        checked baggage, to September 30, 2004, 37 baggage screeners were fired for
                        committing thefts. Of these, 36 began employment before their background
                        checks were completed. Also, TSA passenger and baggage screeners do not
                        receive any specific ethics training before they begin employment or formal ethics
                        training while on the job.

                        Of the approximately 14,600 claims for items missing from passengers’ baggage,
                        3,680 claims have been settled; 3,320 claims have been paid in full; 1,725 claims
                        have been denied; and 5,875 claims are pending. Approximately $736,000 has
                        been paid to claimants for missing items.1 In the absence of an agreement on
                        shared liability with the airlines, TSA decided unilaterally to settle the pending
                        missing items claims in July 2004. Since then, TSA reduced the number of
                        missing items claims by 54%, from nearly 13,000 to 5,875 by September 2004.

                        We are recommending that TSA:

                             1. Evaluate the adequacy of supervision, the physical layout of inspection
                                stations, and the feasibility of installing electronic surveillance techniques
                                near inspection stations.

                             2. Include a module on professional ethics in its screening training
                                curriculum.

                             3. Resume negotiating an agreement with the airline industry on shared
                                liability for lost or stolen baggage claims.




1
    The statistics summarize claims processing activity for the period November 2002-September 2004.


                             A Review of Procedures to Prevent Passenger Baggage Thefts                Page 2
Background
             Congress enacted the Aviation and Transportation Security Act (ATSA) following
             the September 11, 2001, terrorist attacks in the United States (Pub. L. 107-71) and
             created the Transportation Security Administration. TSA assumed the mission of
             protecting the nation’s transportation systems to ensure freedom of movement of
             people and commerce. The federal security screener workforce completed the
             takeover of passenger screening from private sector contractor employees in
             November 2002 and baggage screening in December 2002.

             TSA screens more than 250 million pieces of checked and carry-on passenger
             baggage annually at the nation’s 429 commercial airports. Since TSA screeners
             began inspections in November 2002, the agency has received more than 14,600
             complaints concerning missing items.

Purpose, Scope, and Methodology
             The objectives of our review were to assess the passenger baggage screening
             process to identify its vulnerabilities for theft; and, recommend actions, as
             appropriate, that would prevent or diminish baggage thefts, as well as improve
             lost or stolen baggage claims processing.

             We analyzed applicable rules and procedures relating to baggage handling and the
             handling of claims for lost or stolen baggage. We interviewed TSA officials from
             the Claims Management Office (CMO), Office of Internal Affairs and Program
             Review (OIAPR), Office of Human Resources, and four major airports. We
             observed checked and carry-on baggage and passenger checkpoint screening
             processes at: Ronald Reagan Washington National airport; Baltimore-
             Washington International airport; John F. Kennedy International airport; and
             LaGuardia International airport. Finally, we interviewed officials from two large
             commercial airlines and contacted an airlines’ passenger advocacy group and an
             airlines’ representatives group to obtain their assessment on the extent of the
             baggage theft issue. The airline advocacy group, however, did not respond to our
             questions.

             Our review was conducted under the authority of the Inspector General Act of
             1978, as amended, and according to the Quality Standards for Inspections issued by
             the President’s Council on Integrity and Efficiency.

Checked Baggage Screening Process
             In early 2002, while still assigned to the Department of Transportation, TSA
             began screening checked baggage using equipment previously deployed at


                 A Review of Procedures to Prevent Passenger Baggage Thefts            Page 3
                      airports. TSA deployments of explosives detection equipment began in mid-
                      2002, and by January 1, 2003, it was screening all checked baggage for explosives
                      and prohibited items at each of the 429 commercial airports across the United
                      States. A percentage of all checked baggage undergoes exterior testing only; a
                      percentage of bags are opened and the inside lining seams are tested; and, for a
                      smaller percentage, the bags are opened fully and thoroughly tested. 2

                      When a TSA screener opens a checked bag, which is locked with a TSA-
                      recognized lock, the baggage screener will unlock it and then relock the baggage
                      after the inspection.3 If the lock is not TSA-recognized,4 the baggage screener
                      will attempt to unlock it with a master key. However, if unsuccessful, the lock
                      may be cut or broken in order to complete the inspection. After a TSA screener
                      opens the baggage, the screener is required to provide the traveler with a printed
                      notification that his or her baggage was opened and inspected by authorized TSA
                      security personnel (see Appendix A).

                      Airlines assume responsibility for checked baggage at check-in. TSA has
                      responsibility for checked baggage from the time it accepts the baggage for
                      security screening. After checked baggage is screened or manually inspected, it is
                      moved, usually by a conveyor system, to a restricted area at the airport referred to
                      as the “bag room.” Once the baggage arrives there for sorting and loading onto
                      aircraft, the airlines resume responsibility for its security. Although airline
                      baggage handlers do not have a reason to open checked baggage, they have a brief
                      but uninterrupted opportunity to rifle through baggage during aircraft loading.
                      TSA officials believe that airline employees are responsible for a large percentage
                      of thefts. TSA officials estimate that checked baggage is under the airlines’
                      control about 90% of the time.

                      The location and number of checked baggage screening equipment varies among
                      airports. Typically, baggage screening equipment is positioned either adjacent to
                      the ticketing area or in the bag room, which usually is not accessible to the public.
                      Some airports use a combination of baggage screening locations. For example,
                      Ronald Reagan Washington National airport has screening machines adjacent to
                      the airline ticket counters. Baltimore-Washington International airport, LaGuardia
                      and John F. Kennedy International airport have screening machines in the vicinity
                      of ticket counters and machines in its bag rooms.


2
  In addition to the formula-driven testing, testing can occur when the explosive detection equipment senses an explosive
or a suspicious item. In such cases, a TSA screener will manually inspect the suspect baggage, which may involve
opening the bag and examining its contents.
3
  The “Travel Tips” section on the TSA website advises passengers to lock their baggage with a TSA-recognized lock
and when possible, place valuable items in their carry-on baggage.
4
  TSA concedes that TSA-recognized locks do malfunction, and it does not assume liability for damage to any type of
baggage locking mechanism.


                           A Review of Procedures to Prevent Passenger Baggage Thefts                          Page 4
                       A notification of baggage inspection form is placed in checked baggage after the
                       bag has been opened and inspected. The note does not identify the screener who
                       opened the bag. A TSA official said that the ability to identify individual
                       screeners who open baggage would have little effect, if any, on theft deterrence.
                       This official believes that baggage screeners with criminal intent would not place
                       an identifier in a bag from which they have stolen items; baggage screeners who
                       correctly identify themselves are not likely to steal; and perpetrators could sign
                       another screener’s name on the inspection notification or place a false identifier in
                       the bag. In addition, providing individualized inspection notices for nearly 17,000
                       baggage screeners would be difficult logistically and could create control issues.
                       Therefore, TSA opposes the use of a baggage inspection notice that identifies the
                       individual screener who opened the bag.


Passenger and Carry-on Baggage Screening Processes
                       On October 8, 2001, the Federal Aviation Administration issued an advisory that
                       limits passengers to one carry-on bag and one personal bag, i.e., purse or
                       briefcase. Airlines retained the discretion to set policy regarding the size and
                       weight of carry-on items. Regardless of the airlines’ policies, each piece of carry-
                       on baggage must be screened for prohibited or suspicious items by a TSA
                       screener. Carry-on baggage checks occur at a screening station or checkpoint
                       where passengers themselves are checked prior to boarding their aircraft.
                       Passengers pass through a metal detector and carry-on items are x-rayed.

                       Some passengers are sent to secondary screening based on TSA protocols or when
                       their carry-on items activate an alarm at the screening checkpoint. TSA baggage
                       screeners have the discretion and are authorized to refer passengers to secondary
                       screening based on their own observations and judgment, even in the absence of
                       one of the foregoing premises. When a passenger is selected for a secondary
                       screening, his or her carry-on baggage may be opened and examined by a TSA
                       screener. It is at this point that theft of contents from carry-on baggage can occur.

                       According to TSA, 20 theft cases have occurred at passenger checkpoints since it
                       began baggage screening. TSA baggage screeners have stolen change, paper
                       currency, credit cards, pens, watches, cell phones, and jewelry from carry-on
                       baggage. In addition, similar items unintentionally left at passenger checkpoints
                       by travelers have been stolen. According to the baggage screeners’ training
                       manual, loose change and other cash must be turned over to the checkpoint
                       supervisor. TSA retains unclaimed money recovered at any airport security
                       checkpoint for use toward expenses related to civil aviation security.5


5
    See 49 U.S.C. 44945, Disposition of Unclaimed Money, added by Pub.L. 108-334 (October 18, 2004).


                            A Review of Procedures to Prevent Passenger Baggage Thefts                 Page 5
                      When a passenger inadvertently leaves personal property other than cash at a
                      screening checkpoint, the item is normally kept at that checkpoint for a few hours
                      in the event the passenger returns to claim it. If the passenger does not return to
                      claim the property, TSA makes a record of the item left behind and sends it to the
                      airport’s lost and found facility.


    Instances of Baggage Contents Theft
                      We could not ascertain an authoritative estimate of the extent of passenger
                      baggage content theft, either generally or since TSA took over baggage screening.
                      We requested such data from the Air Travelers Association (ATA), an air
                      passenger advocacy group. ATA did not provide empirical data, but reported that
                      carriers have noticed increases in loss-of-contents complaints since physical
                      inspection of checked baggage began. The magnitude of these increases varies
                      from carrier to carrier, but it is appreciable. According to ATA, the rise in loss-of-
                      contents is occurring because passengers’ checked baggage is regularly opened
                      and searched according to TSA security procedures, which is a new part of the
                      baggage examination process rarely performed by the previous private screeners.

                      Recent media reports have cited instances of baggage thefts. For example, two
                      baggage screeners were arrested and charged with grand theft for allegedly
                      stealing baggage at Miami International airport.6 In this case, after checked
                      baggage was screened at checkpoints in the airport’s ticketing area, the accused
                      baggage screeners opened the bags in the restricted baggage handling area one
                      floor below the ticketing area and stole compact discs, cologne, and digital
                      videodisc players. At the New Orleans Louis Armstrong International airport,
                      four baggage screeners were arrested for removing items from passengers’ bags
                      and selling and trading the items at the airport’s employee parking lot.7 At the
                      Fort Lauderdale-Hollywood International airport, four baggage screeners stole
                      cash, credit cards, jewelry, and electronic devices from checked baggage.8 In
                      another incident, travelers who passed through the Spokane International airport
                      reported some of their pain medications missing. In a sting operation, the U.S.
                      Drug Enforcement Administration and TSA officials used a surveillance camera
                      to identify a TSA supervisory screener taking prescription drugs from a
                      passenger’s baggage. 9 Last, in a sting operation, four TSA baggage screeners
                      were arrested at New York’s John F. Kennedy and LaGuardia airports for stealing
                      money, jewelry, and other valuables from checked baggage.10


6
  June 25, 2003, NBC 6 News Team, “Federal Baggage Screeners Charged With Theft”
7
  June 26, 2004, New Orleans Times-Picayune, “Police Arrest Four More New Orleans Baggage Screeners”
8
  June 30, 2004, The Miami Herald, “Four Fort Lauderdale Screeners Accused of Stealing From Luggage”
9
  July 15, 2004, Seattle Post-Intelligencer, “Airport Screener Held for Stealing Drugs from Passengers’ Bags”
10
   August 18, 2004, New York Times, “Bag It”


                           A Review of Procedures to Prevent Passenger Baggage Thefts                           Page 6
                      In addition to the arrest at the Spokane International airport where a surveillance
                      camera was used, the arrests at the Miami, New York, Ft. Lauderdale, and New
                      Orleans airports were accompanied by videotape recordings that captured the
                      employees in the act of stealing from passenger bags. Video evidence constitutes
                      significant support for criminal prosecutions.

                      Incidents of theft are more likely to take place in an environment where an
                      opportunity to pilfer exists. This may result from inadequate supervision, the
                      physical layout of the inspection area, or collusion among workers. It is more
                      likely that thefts occur in unmonitored restricted areas at airports.

                      Detection and prosecution of thefts cases in remote areas of the airport, where
                      access is restricted, and observation by others is limited, will continue to be
                      difficult. Increasing supervisory oversight, increasing the surveillance of bag
                      rooms with cameras and better lighting, and increasing the likelihood of detection
                      by other means may achieve deterrence. One avenue that TSA should consider
                      arises from an analogous activity conducted by the OIAPR. OIAPR does
                      penetration testing of screeners to test their ability to detect prohibited baggage
                      contents. Similarly, OIAPR could perform integrity testing at problematic
                      airports, i.e., at airports where a statistical review of reported theft and loss data
                      warrants. Testing could be modeled after the successful sting operations
                      performed at the New York and Spokane airports. General awareness among the
                      screener workforce that OIAPR is monitoring statistical data to look for
                      problematic airports, and is prepared to undertake sting operations to seek out
                      corrupt baggage screeners, would significantly enhance the deterrence element of
                      a theft prevention program.

                      Not all losses are thefts. A TSA official said that baggage screeners exercise care
                      during the screening process to ensure that baggage contents are returned to the
                      traveler’s baggage every time baggage is opened. However, TSA officials also
                      mentioned that baggage screeners, on occasion, inadvertently would fail to repack
                      items such as a single shoe, trousers, or cosmetic pouches. Haste, caused by a low
                      ratio of staff to baggage volume, and inadequate inspection areas can contribute to
                      such losses. For the passenger, the distinction between theft and inadvertent
                      failure to return all items to baggage is immaterial.

                      We recommend that the Assistant Secretary for TSA:

                      Recommendation 1: Evaluate the adequacy of supervision, the physical layout
                      of inspection stations, and the feasibility of installing electronic surveillance
                      equipment and other covert security techniques near inspection stations. 11

11
  On December 7, 2004, Congress passed the Intelligence Reform and Terrorism Prevention Act of 2004, Pub.L. 108-
458. Section 4020 required the Under Secretary for Border and Transportation Security to provide "assistance to airports


                           A Review of Procedures to Prevent Passenger Baggage Thefts                         Page 7
Background Checks of Baggage Screeners
                      TSA was directed by the ATSA to hire federal passenger screeners by November
                      19, 2002, and to employ baggage screeners and implement baggage screening by
                      December 31, 2002. TSA reviewed more than 360,000 applications and hired
                      approximately 55,600 screeners. During the height of the hiring period, TSA and
                      its support contractors were hiring nearly 5,000 screeners per week.

                      Pursuant to the ATSA, federal screeners must undergo a four-phase background
                      investigation. The background check includes the following:

                           ● FBI national criminal history check;
                           ● Local criminal history, credit checks, and link analysis against terrorist
                             watch list databases;
                           ● Prior employment, education, and personal reference checks; and,
                           ● National agency records check incorporating the results of fingerprint,
                             criminal history, and credit checks, as well as education, references, and
                             citizenship verification.

                      As of June 8, 2004, TSA had terminated 37 baggage screeners for committing
                      theft. Of those, TSA records indicate that 36 baggage screeners began work
                      before their background checks were complete. TSA records indicate that only
                      one screener among those who were terminated for theft began employment after
                      the background check had been completed. Of the 36 screeners whose
                      background checks had not been completed prior to their employment, TSA had
                      no record of the status of five screeners’ background checks; two screeners’
                      background checks were discontinued for unspecified reasons, yet those screeners
                      remained on the job; and two other screeners’ background checks subsequently
                      were returned as unacceptable, which may be construed as meaning their
                      background checks revealed derogatory information. Those screeners also
                      remained on the job.

                      Our report, A Review of Background Checks for Federal Passenger and Baggage
                      Screeners at Airports, dated January 2004, noted that as of May 31, 2003, about
                      42,000 applicants had one or more incomplete phases in their background check.
                      Overwhelmed by the volume of applications and the deadline to meet the mandate

at which screening is required . . . and that have checked baggage screening areas that are not open to public view in the
acquisition and installation of security monitoring cameras for surveillance of such areas in order to deter theft from
checked baggage and to aid in the speedy resolution of liability claims against the Transportation Security
Administration." This new statutory requirement satisfies the intent of our recommendation. The follow-up monitoring
that we conduct when tracking a component's corrective actions against our report recommendations will permit us to
continue to evaluate TSA's provision of assistance to airports, as mandated.



                           A Review of Procedures to Prevent Passenger Baggage Thefts                            Page 8
            of the ATSA, screeners were hired and permitted to work contrary to sound
            personnel security practices and the provisions of the ATSA. On August 23,
            2004, CBS televised footage of a TSA baggage screener caught by a surveillance
            camera removing items from a passenger’s baggage. It was later discovered that
            the screener had four social security numbers and a criminal conviction for
            shoplifting.

            It is now TSA policy to complete a favorably adjudicated criminal history records
            check before offering employment to job candidates. TSA has established
            processes, procedures, and systems to ensure that fingerprint and preliminary
            background checks are complete before candidates are hired. We will continue to
            monitor TSA’s progress in this area.


Baggage Screener Training
            Baggage screeners are duty bound to protect air travelers by identifying
            explosives and harmful objects in baggage and preventing them from being
            loaded onto aircraft. Instances of baggage theft committed by TSA baggage
            screeners not only erodes public confidence in the TSA baggage screening
            process, but also questions the ethical conduct of TSA baggage screeners.
            Passengers have a right to expect that their belongings will be secure when they
            relinquish control of their baggage.

            TSA baggage screener training is designed to instruct baggage screeners on the
            use of equipment that detects explosives and to identify prohibited items that
            might be concealed in passengers’ checked or carry-on baggage. The training
            curriculum does not include, however, a module on ethics. A TSA official said
            that although ethics training was not included, baggage screeners are expected to
            “know” that willfully taking passengers’ property is unethical. In addition, a TSA
            official said that TSA Management Directive No. 1100.75-1, which sets forth
            policies and procedures on the use of disciplinary and adverse actions to address
            employee performance and conduct problems, is posted on the TSA intranet site.
            According to this directive, conduct involving theft is an offense for which
            removal from employment is required. Although this directive is on TSA’s
            intranet, a TSA official said that most baggage screeners do not have access to the
            agency’s intranet.

            We recommend that the Assistant Secretary for TSA:

            Recommendation 2: Include a module on professional ethics in the screener-
            training curriculum and provide periodic ethics training for all baggage and




                A Review of Procedures to Prevent Passenger Baggage Thefts            Page 9
            passenger screeners. Such training should detail the disciplinary actions that will
            be taken to address employee misconduct.




Missing Items Claims Processing
            If a passenger discovers, typically after leaving the airport and unpacking at their
            destination, that contents are missing from his or her baggage, it is likely that the
            passenger will contact the airline last flown. The airline will usually recommend
            that the passenger contact TSA, either by visiting the TSA website or by calling
            TSA’s toll-free number. TSA provides instructions both on its website and toll
            free telephone number to passengers who wish to file a claim. In addition to filing
            instructions, TSA’s website has a version of the claim form, Claim For Damage,
            Injury, Or Death, Standard Form 95 (SF-95). Passengers who have access to the
            internet and who desire to file claims are encouraged to download, complete, and
            mail the claim form to the CMO. Passengers who do not have access to the
            Internet may call the TSA Contact Center and a claim form and instructions will
            be mailed within 10 days. In lieu of the form SF-95, passengers may file a claim
            by sending a signed letter that contains the claim information to the CMO. Also,
            the website provides information on the limits of TSA’s liability for damaged or
            missing items and the length of the filing period.

            The CMO has a staff of eighteen who process claims. Their duties also include
            adjudication, review, management oversight, financial transactions, and
            Congressional Correspondence. Upon receipt of the form SF-95 or the signed
            letter, the CMO conducts a preliminary review of the claim to determine whether
            the alleged incident was a result of TSA’s negligence. In this regard, TSA has
            instructed baggage screeners to acknowledge any damage they may have caused
            by placing their business card in the baggage. Claims where a TSA screener has
            acknowledged responsibility for damage are processed with minimal delay.

            The value and age of all claim items must be verified. Claimants must provide
            proof of purchase as evidenced by receipts, credit card statements, bank
            statements, purchase orders, or invoices. If no receipt is available, the claimant
            must provide an itemized list that includes the price and product specifications or
            a description of a comparable item. If necessary, the CMO contacts the claimant
            to obtain additional information. Also, the CMO may contact others who may
            have knowledge of the circumstances associated with the loss or officials at the
            airport where the loss may have occurred.

            When a claim is logged into the claims management database, it is automatically
            checked to determine whether it was entered previously. If the claim is not in the



                A Review of Procedures to Prevent Passenger Baggage Thefts              Page 10
                        database, it is entered and assigned an identification tracking number. The
                        tracking number enables CMO employees to identify claims readily. In addition,
                        TSA has added a feature to its website that allows claimants to track the status of
                        their claims through the use of the tracking number. TSA issues an
                        acknowledgement letter to notify the claimant that the claim has been received.

                        TSA adjudicates claims under the guidelines established by the Federal Tort
                        Claims Act (FTCA).12 A claimant is entitled to the fair market value of the
                        missing property measured at the time and place of the loss. The FTCA does not
                        establish a dollar limit for a claim, but does require that claims be filed within two
                        years from the date of the incident. The CMO receives all tort claims, including
                        lost or damaged property and personal injury, involving or related to TSA
                        personnel or screening operations. CMO investigates all property tort claims and
                        can approve payment up to $2,500. The Office of Chief Counsel approves claims
                        payments from $2,501-$25,000. Claims payments greater than $25,000 are
                        forwarded to the Department of Justice for approval. Under the FTCA, all
                        payments above $2,500 are paid out of the “Judgment Fund” administered by the
                        Department of Treasury.

                        TSA is obligated to investigate and pay claims as deemed appropriate. In
                        accordance with the FTCA and applicable state law, TSA generally does not pay
                        for incidental or consequential expenses, such as phone calls, mail, missed or
                        rescheduled flights, or hotel bills that may have resulted because of the loss. For
                        similar reasons, TSA generally does not consider the sentimental value of an item.

                        All claims must be sufficient regardless of the amount claimed. However,
                        verifying the details of each case can be time consuming and costly. Therefore, it
                        is typical for a case to remain active for three or more months. To reduce the
                        backlog of claims and simultaneously reduce costs, a TSA official said that once
                        they factor in the often expensive cost of investigating a claim, they generally find
                        it prudent to pay claims valued up to a threshold amount. Approximately 75% of
                        all missing items payments are less than $500 - - the average being $120.

                        TSA estimates that checked baggage is under the control of TSA and the airlines
                        about 10% and 90% of the time, respectively. Even when it is possible to verify
                        that a passenger suffered a theft or loss, it may be impossible to attribute
                        responsibility between TSA baggage screeners and airline baggage handlers. In
                        August 2003, TSA and the airline industry started negotiations on an agreement
                        wherein TSA would be required to pay 35% and the airlines 65% of approved
                        claims filed after the memorandum was signed. By July 2004, however, the two
                        sides were unable to reach an agreement. Thereafter, TSA decided to settle
                        pending missing items claims while pursuing agreements with individual airlines,

12
     28 U.S.C.: 1346(b), 2671 et seq.


                            A Review of Procedures to Prevent Passenger Baggage Thefts              Page 11
                    in lieu of a universal agreement. As a result of this decision, TSA has reduced the
                    number of pending missing items claims by 54% from nearly 13,000 in June 2004
                    to 5,875 in September 2004. The following chart shows the significance of this
                    reduction.


                                 Chart 1: Statistics on Baggage Claims Processing

                   15,000
                                                                                                        12,869

                   12,000
Number of claims




                    9,000
                                                                                                                         11/02-06/04
                                                                                                                 5,875   07/04-09/04
                    6,000
                                                                       3,543
                                                 2,691
                    3,000
                                                                                             1,153
                                  529                                                  572
                                                                 137
                       0
                              claims settled for             claims settled for      claims denied   claims pndg as of
                                 full amount                    less than full                          06/04 09/04
                                                                  amount




                    From November 2002 through June 2004, TSA paid $137,000 to claimants.
                    However, because TSA decided unilaterally to settle many pending missing item
                    claims, as shown in Chart 2, TSA paid $599,000 from June to September 2004.
                    The total of all claims paid as of September 2004 was $736,000.



                                                             Chart 2: Dollar Amount Paid to
                                                                       Claimants

                                                 800,000
                                                                                                         599,000
                                    In Dollars




                                                 600,000
                                                 400,000
                                                                         137,000
                                                 200,000
                                                         0
                                                                       11/02-06/04                     07/04-09/04
                                                                                       Time period




                    Despite continued uncertainty on shared liability between TSA and the airline
                    industry for missing items, we commend TSA for its recent aggressive process for


                            A Review of Procedures to Prevent Passenger Baggage Thefts                                        Page 12
adjudicating pending missing items claims. However, TSA should resume
negotiations with the airlines. Currently, TSA is making 100% of restitution when
it determines that it is solely liable for the loss. TSA makes 50% of the restitution
when liability could be shared with the airlines. Moreover, some unscrupulous
claimants might be submitting claims to both TSA and the airlines and are being
paid by both. An agreement with the airlines would reduce any double payments.

We recommend that the Assistant Secretary for TSA:

Recommendation 3: Resume negotiating with the airline industry to devise an
equitable method for sharing the liability for missing checked baggage items
claims.




    A Review of Procedures to Prevent Passenger Baggage Thefts              Page 13
Appendix A
Notification of Baggage Inspection Form




A Review of Procedures to Prevent Passenger Baggage Thefts   Page 14
Appendix B
Management Comments




A Review of Procedures to Prevent Passenger Baggage Thefts   Page 15
Appendix B
Management Comments




A Review of Procedures to Prevent Passenger Baggage Thefts   Page 16
Appendix B
Management Comments




A Review of Procedures to Prevent Passenger Baggage Thefts   Page 17
   Appendix C
   OIG Evaluation of Management Comments




We evaluated TSA’s written comments to the draft report and made changes as
appropriate to the final version. Below is a summary of our analysis of TSA’s
response to the recommendations contained in the draft report.

Recommendation 1: Evaluate the adequacy of supervision, the physical layout of
inspection stations, and the feasibility of installing electronic surveillance
techniques near inspections stations.

TSA Response: TSA replied that it is continuously reviewing procedures related
to baggage screening issues, including supervision of baggage screeners, the
physical layout of screening stations, and the use of electronic surveillance system
(ESS) techniques. With regard to ESS, TSA’s Office of Aviation Security
Programs is coordinating with its Chief Information Officer to plan for the
installation ESS where none exists or to supplement existing systems. In addition,
TSA is working with airports to find the most cost effective method to maintain
current systems and install future ESS. Limited funds are available for ESS in
FY2005. In addition, TSA is implementing the requirements of the Intelligence
Reform and Terrorism Prevention Act concerning checked baggage screening
area monitoring.

OIG Evaluation: We concur with TSA’s action and regard the recommendation
as resolved and open. TSA’s continuous internal scrutiny of baggage screening
procedural issues as well as management matters is responsive. The installation of
ESS systems at every baggage inspection area in all airports would exceed
reasonably foreseeable federal funding. However, TSA needs to be more specific
in explaining how it will deploy ESS at select airports. We will close this
recommendation once TSA supplements its response to show that it has finalized
its ESS installation and supplemental plans and provides evidence that installation
of new ESS or the upgrading of existing ESS is in progress.

Recommendation 2: Include a module on professional ethics in its training
curriculum.

TSA Response: TSA plans to make ethics training mandatory for all of its
employees. Presently, only employees who file financial disclosure reports are
required to attend ethics training. TSA’s Office of Workforce Performance and
Training (OWPT) is developing TSA’s general ethics course. TSA expects that
this course will be available on its Online Learning Center by April 27, 2005.
Once the ethics course is available, new employees must complete the course
within 90 days, while tenured employees have up to 6 months to complete the
course.


    A Review of Procedures to Prevent Passenger Baggage Thefts             Page 18
   Appendix C
   OIG Evaluation of Management Comments




TSA also pointed out that a copy of “TSA Guide to Major Ethics Rules” is
provided to new employees; all employees are required to sign the TSA HRM
Letter No. 735-1, Interim Policy on Employee Responsibilities and Conduct; and
ethics posters are displayed in TSA offices and break rooms. Finally, TSA’s
Office of Counsel often offers ethics training sessions for financial disclosures
filers at airports. These sessions are open to all employees including the screeners.

OWPT also plans to incorporate into TSA’s three basic screener courses, lessons
learned as a result of screeners who have been prosecuted for committing baggage
thefts.

OIG Evaluation: TSA’s commitment to educate its employees on their ethical
obligations through general ethics training, by distributing literature that focuses
on ethics rules, and by displaying ethics posters is encouraging. These initiatives,
while beneficial, do not achieve the result sought by our recommendation. We
recommended that all screeners receive ethics training, not just lessons learned,
during the initial training preparatory to their starting work, not after they have
started. Moreover, TSA has not provided an assurance that it has a method to
track and ensure that each employee takes the general ethics training it proposes
to offer. We regard this recommendation as resolved because of TSA’s stated
intention to expand new screener training, but it will remain open until lessons
learned are made part of TSA’s formal ethics training on issues related to worker
integrity, public trust, and the prohibitions and penalties for theft or reckless
treatment of passenger belongings.

Recommendation 3: Resume negotiating an agreement with the airline industry
on shared liability for lost or stolen baggage claims.

TSA Response: TSA resumed discussions with the airline industry on January
11, 2005. The goals of the discussion included identifying methods for improving
customer service as well as enlightening passengers where to file claims;
enhancing detection of fraud; facilitating cooperation in resolving exceptional
claims; and, establishing communications between the Claims Management
Office and airline claims offices. TSA plans to present a white paper on the
proposed goals to the airline industry in spring 2005. Then, the airline industry is
expected to share the paper with its members, and provide input to TSA. Finally,
the plan is to have all domestic airlines sign a memorandum of cooperation by late
spring 2005.




    A Review of Procedures to Prevent Passenger Baggage Thefts             Page 19
   Appendix C
   OIG Evaluation of Management Comments




OIG Evaluation: Though TSA has resumed negotiations with the airline
industry, sharing liability for loss or stolen items claims did not appear to be on
the agenda. This recommendation remains unresolved until TSA provides
evidence that the issue of shared liability is being negotiated with the airline
industry.




    A Review of Procedures to Prevent Passenger Baggage Thefts              Page 20
   Appendix D
   Recommendations




Recommendation 1: Evaluate the adequacy of supervision, the physical layout
of inspection stations, and the feasibility of installing electronic surveillance and
other covert security techniques near inspection stations.

Recommendation 2: Include a module on professional ethics in the screener-
training curriculum and provide periodic ethics training for all baggage and
passenger screeners. Such training should detail the disciplinary actions that will
be taken to address employee misconduct.

Recommendation 3: Resume negotiating with the airlines to devise an equitable
method for sharing the liability for missing checked baggage items claims.




    A Review of Procedures to Prevent Passenger Baggage Thefts               Page 21
Appendix E
Major Contributors To This Report




Carlton I. Mann, Chief Inspector, Department of Homeland Security, Office
of Inspections and Special Reviews

M. Faizul Islam, Ph.D., Senior Inspector, Department of Homeland Security,
Office of Inspections and Special Reviews

Vivian M. Dupuy, Inspector, Department of Homeland Security, Office of
Inspections and Special Reviews




A Review of Procedures to Prevent Passenger Baggage Thefts         Page 22
Appendix F
Report Distribution




Department of Homeland Security

    Secretary
    Deputy Secretary
    General Counsel
    Chief of Staff
    Acting Under Secretary, Border and Transportation Security
    Deputy Chief Security Officer
    Public Affairs Officer
    DHS OIG Liaison

Transportation Security Administration

    Assistant Secretary of Homeland Security for TSA
    Director, Credential Program Office
    Director, Human Resources Office
    Director, Aviation Operations
    Manager, Claims Management Office
    OIG Liaison, Office of Transportation Security Policy

Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

Congress

    Congressional Oversight and Appropriations Committees, as appropriate




A Review of Procedures to Prevent Passenger Baggage Thefts        Page 23
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse, or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to Department programs or
operations, call the OIG Hotline at 1-800-323-8603; or write to the
Department of Homeland Security, Washington, DC 20528, Attn: Office of
Inspector General, Investigations Division – Hotline. The OIG seeks to
protect the identity of each writer and caller.
